HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of CareFirst of Maryland, Inc.,"(A-05-03-00026)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of CareFirst of Maryland, Inc.," (A-05-03-00026)
March 31, 2003
Complete
Text of Report is available in PDF format (372 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This OIG report estimates that $8.1 million in ineligible Medicare Skilled
Nursing Facility (SNF) payments were made under administrative responsibility
of CareFirst of Maryland, Inc. (CareFirst) during calendar years 1997 through
2001.  The overpayments occurred because of the absence of an automated
cross-check between the Centers for Medicare and Medicaid Services Common Working
File and the Fiscal Intermediarys claims processing systems to verify that
a three consecutive day inpatient hospital stay occurred prior to SNF admission.  CareFirst
agreed with the findings and recommendations presented in the report and will
initiate recovery actions for the unallowable SNF claims.